1070 Edgefield Road
P.O. Box 6730
North Augusta, SC 29861
(800) 237-9829

IMPORTANT CREDIT CARD DISCLOSURES
The following disclosure represents important details concerning your credit card. The information about costs of the card are accurate as of
09/01/2020
__________________
. You can contact us toll free at (800) 237-9829 or 1070 Edgefield Road, P.O. Box 6730, North Augusta, SC 29861 to inquire if
any changes occurred since the effective date.
INTEREST RATES and INTEREST CHARGES:
VISA TRADITIONAL
SECURED
Annual Percentage Rate (APR) for
Purchases

14.00%

1.99%

This APR will vary
Introductory APR for twelve
with the market based months as of account
on the Prime Rate.
opening. After that, your
Standard APR will be

APR for Cash Advances

14.00%
This APR will vary
with the market
based on the Prime
Rate.

APR for Balance Transfers

14.00%
This APR will vary
with the market
based on the Prime
Rate.

VISA REWARDS

VISA TRADITIONAL

VISA SIGNATURE

1.99%

1.99%

Introductory APR for twelve
months as of account
opening. After that, your
Standard APR will be

Introductory APR for twelve
months as of account
opening. After that, your
Standard APR will be

5.25%-14.25%

6.25%-16.25%

6.25%-16.25%

depending on your credit
history. This APR will vary
with the market based on
the Prime Rate.

depending on your credit
history. This APR will vary
with the market based on
the Prime Rate.

depending on your credit
history. This APR will vary
with the market based on
the Prime Rate.

5.25%-14.25%
depending on your credit
history. This APR will vary
with the market based on
the Prime Rate.
1.99% Introductory APR for
twelve months as of
account opening. After that,
your Standard APR will be

6.25%-16.25%
depending on your credit
history. This APR will vary
with the market based on
the Prime Rate.
1.99% Introductory APR for
twelve months as of
account opening. After that,
your Standard APR will be

6.25%-16.25%
depending on your credit
history. This APR will vary
with the market based on
the Prime Rate.
1.99% Introductory APR for
twelve months as of
account opening. After that,
your Standard APR will be

5.25%-14.25%
depending on your credit
history. This APR will vary
with the market based on
the Prime Rate.

6.25%-16.25%
depending on your credit
history. This APR will vary
with the market based on
the Prime Rate.

6.25%-16.25%
depending on your credit
history. This APR will vary
with the market based on
the Prime Rate.

Paying Interest

Your due date is at least 21 days after we mail your billing statement. We will not charge you interest on purchases
if you pay your entire new purchase balance by the due date each month. We will begin charging interest on cash
advances and balance transfers on the date the cash advance or balance transfer is posted to your account.

Minimum Interest Charge

None

For Credit Card Tips from the
To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau Consumer Financial Protection Bureau's web site at http://www.consumerfinance.gov/learnmore.
FEES:
Fees to Open or Maintain your Account
- Annual Fee:
None
- Application Fee:
None
Transaction Fees
- Balance Transfer:
- Cash Advance:
- Foreign Transaction:

None
2% of the amount of each cash advance or $10.00, whichever is greater
1% for any transaction outside the U.S. or U.S. territories

Penalty Fees
- Late Payment:
- Over-the-Credit Limit:
- Returned Payment:

Up to $25.00 if your payment is late 1 day or more
None
Up to $20.00 if your payment is returned for any reason

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)."
Loss of Introductory Rate: We may end your Introductory Rate and apply the Standard APR disclosed above if you are 60 days late.
9013 LASER FPDF FI14832 Rev 8-2020

page 1 of 3

COPYRIGHT 2005 Securian Financial Group, Inc. All rights reserved.

CREDIT CARD APPLICATION

1070 Edgefield Road
P.O. Box 6730
North Augusta, SC 29861
(800) 237-9829

Married Applicants may apply for a separate account. Check the appropriate box to indicate Individual Credit or Joint Credit.
Individual Credit: Complete Applicant sections if only the applicant's income is considered for loan approval.
Complete Applicant and Co-Applicant sections: (1) if you are relying on income from alimony, child support, or separate maintenance
or on the income or assets of another person as the basis for repayment of credit requested; (2) if you reside in a Community Property
State; (3) if you are relying on property located in a Community Property State as a basis for repayment of the credit requested; or (4) if
you are an Alaska resident subject to a community property agreement or community property trust. Community Property States include:
AZ, CA, ID, LA, NM, NV, TX, WA, WI.
Joint Credit:

Complete Applicant and Co-Applicant sections if your co-applicant will be contractually liable for repayment of the loan and initial below:
We intend to apply for joint credit.

(Applicant Initials)

(Co-Applicant Initials)

PLEASE CHECK BELOW TO INDICATE THE TYPE OF ACCOUNT(S) AND TYPE OF CREDIT FOR WHICH YOU ARE APPLYING.
Individual

Credit Cards:

Number of Cards

Joint

Amount Requested $

Visa Traditional Secured
Visa Traditional

If Authorized user, name

Visa Rewards

Date of Birth

SEE PAGE 1 FOR IMPORTANT INFORMATION ABOUT CREDIT CARDS

Visa Signature
APPLICANT

CO-APPLICANT

NON-APPLICANT SPOUSE/OTHER

GUARANTOR

NAME (Last - First - Initial)

ACCOUNT NUMBER

NAME (Last - First - Initial)

ACCOUNT NUMBER

SOCIAL SECURITY NUMBER

MOTHER'S MAIDEN NAME

SOCIAL SECURITY NUMBER

MOTHER'S MAIDEN NAME

E-MAIL ADDRESS

FAX NUMBER

E-MAIL ADDRESS

FAX NUMBER

BUSINESS PHONE/EXT.

BIRTH DATE

STATE

DRIVER'S LICENSE NUMBER

HOME PHONE

BIRTH DATE

DRIVER'S LICENSE NUMBER

PRESENT ADDRESS (Street - City - State - Zip)

OWN

BUSINESS PHONE/EXT.

HOME PHONE

STATE

PRESENT ADDRESS (Street - City - State - Zip)

RENT

OWN

YEARS/MONTHS
AT THIS ADDRESS

RENT

YEARS/MONTHS
AT THIS ADDRESS

PREVIOUS ADDRESS (Street - City - State - Zip)

PREVIOUS ADDRESS (Street - City - State - Zip)

PURCHASE PRICE OF HOME:

PRESENT HOME VALUE:

PURCHASE PRICE OF HOME:

PRESENT HOME VALUE:

$

$

$

$

MORTGAGE BALANCE

MONTHLY PAYMENT (MORTGAGE/RENT)

MORTGAGE BALANCE

MONTHLY PAYMENT (MORTGAGE/RENT)

$

$

$

$

PLEASE COMPLETE ONLY IF YOU ARE APPLYING FOR JOINT CREDIT, SECURED CREDIT, OR IF
YOU LIVE IN A COMMUNITY PROPERTY STATE.
MARRIED

SEPARATED

UNMARRIED (Single - Divorced - Widowed)

PLEASE COMPLETE ONLY IF YOU ARE APPLYING FOR JOINT CREDIT, SECURED CREDIT, OR IF
YOU LIVE IN A COMMUNITY PROPERTY STATE.
SEPARATED
UNMARRIED (Single - Divorced - Widowed)
MARRIED

EMPLOYMENT
NAME AND ADDRESS OF EMPLOYER

HIRE DATE

NAME AND ADDRESS OF EMPLOYER

POSITION

HIRE DATE

PRIOR EMPLOYER

POSITION

PRIOR EMPLOYER

INCOME
OTHER INCOME NOTICE: Alimony, child support, or separate maintenance
income need not be revealed if you do not choose to have it considered.

OTHER INCOME NOTICE: Alimony, child support, or separate maintenance
income need not be revealed if you do not choose to have it considered.

INCOME

INCOME

$

$

PER

PER

REFERENCES
NAME AND ADDRESS OF NEAREST RELATIVE NOT LIVING WITH YOU

HOME NUMBER

NAME AND ADDRESS OF NEAREST RELATIVE NOT LIVING WITH YOU

RELATIONSHIP

HOME NUMBER

RELATIONSHIP

page 2 of 3

OTHER INFORMATION ABOUT YOU - IF YOU ANSWER "YES" TO ANY QUESTION OTHER THAN #1, EXPLAIN ON AN ATTACHED SHEET.

APPLICANT

OTHER

1. ARE YOU A U.S. CITIZEN OR PERMANENT RESIDENT ALIEN?
2. DO YOU CURRENTLY HAVE ANY OUTSTANDING JUDGMENTS OR HAVE YOU EVER FILED FOR BANKRUPTCY, HAD A DEBT
ADJUSTMENT PLAN CONFIRMED UNDER CHAPTER 13, HAD PROPERTY FORECLOSED UPON OR REPOSSESSED IN THE
LAST 7 YEARS, OR BEEN A PARTY IN A LAWSUIT?
3. IS YOUR INCOME LIKELY TO DECLINE IN THE NEXT TWO YEARS?
4. ARE YOU A CO-MAKER, CO-SIGNER OR GUARANTOR ON ANY LOAN NOT LISTED ABOVE?
FOR WHOM (Name of Others Obligated on Loan):
TO WHOM (Name of Creditor):

STATE NOTICES
OHIO RESIDENTS ONLY: The Ohio laws against discrimination require that all creditors make credit equally available to all creditworthy customers, and that
credit reporting agencies maintain separate credit histories on each individual upon request. The Ohio Civil Rights Commission administers compliance with
this law.
WISCONSIN RESIDENTS ONLY: Marital Status:

Married

Unmarried

Legally Separated

If married: the name of my spouse is
Spouse's Address (if different)

Spouse's SSN:

Notice: No provision of any marital property agreement, unilateral statement under Section 766.59, or court decree under Section 766.70 will adversely
affect the rights of the Credit Union unless the Credit Union is furnished a copy of the agreement, statement or decree, or has actual knowledge of its terms,
before the credit is granted or the account is opened.
MARRIED WISCONSIN RESIDENTS APPLYING FOR AN INDIVIDUAL ACCOUNT: By signing here, I state that the credit being applied for, if granted, will
be incurred in the interest of the marriage or family of the Borrower(s).

X

SECURITY INTEREST

THE GRANTING OF THIS SECURITY INTEREST IS A CONDITION FOR THE ISSUANCE OF CREDIT UNDER THIS APPLICATION.
IF YOUR APPLICATION IS APPROVED, YOU SPECIFICALLY GRANT US A CONSENSUAL SECURITY INTEREST IN ALL INDIVIDUAL AND JOINT
ACCOUNTS YOU HAVE WITH US NOW AND IN THE FUTURE TO SECURE REPAYMENT OF CREDIT EXTENDED UNDER THIS AGREEMENT. YOU
ALSO AGREE THAT WE HAVE SIMILAR STATUTORY LIEN RIGHTS UNDER STATE AND/OR FEDERAL LAW. IF YOU ARE IN DEFAULT, WE CAN
APPLY YOUR SHARES TO THE AMOUNT YOU OWE.
Shares and deposits in an Individual Retirement Account or any other account that would lose special tax treatment under state or federal law if given are
not subject to this security interest.
If you have other loans with us, collateral securing such loans will also secure your obligations under this Agreement, unless that other collateral is your
principal residence or non-purchase money household goods.
(Applicant Initials)

(Co-Applicant Initials)

LOAN APPLICATION SIGNATURES
PLEASE READ BEFORE SIGNING:
All the information in this application is true. I understand that section 1014 Title 18 U.S. Code makes it a federal crime to knowingly make a false statement on
this application. You have my permission to check it. You may retain this application even if not approved. I understand that you may receive information from
others about my credit and you may answer questions and requests from others seeking credit or experience information about me or my accounts with you. If
this application is approved, I agree to honor the provisions of the credit card agreement covering my account. (If this application is for two or more of us, this
statement applies to all of us.)
Consumer and Credit Report Authorization. By signing this Application, I authorize you to obtain my consumer and/or credit report for the purposes of
evaluating this application and to obtain subsequent credit reports on an on-going basis in connection with this transaction, and for all other legitimate purposes,
such as reviewing my accounts or taking collection action on the account. I authorize you to receive and review other information about me, such as my
employment and income information, from third-parties or consumer reporting agencies.
Vermont Residents: Applicant provided consent via phone _______________ (Credit Union Initials)
Permission to contact: By providing a wireless telephone number (i.e., cell phone), I consent to receiving calls, including autodialed and prerecorded
message calls, from the credit union or its third party debt collector at that number.
IMPORTANT NOTICE ABOUT PROCEDURES FOR OPENING A NEW ACCOUNT
To help the government fight the funding of terrorism and money laundering activities, Federal law requires all financial institutions to obtain, verify, and record
information that identifies each person who opens an account. What this means for me: When I open an account, you will ask for my name, address, date of
birth, and other information that will allow you to identify me. You may also ask to see my driver's license or other identifying information.
SIGNATURE OF APPLICANT

X

DATE

SIGNATURE OF CO-APPLICANT

X
HAVE YOU OMITTED ANYTHING? REMEMBER: INCOMPLETE APPLICATIONS CANNOT BE PROCESSED.

page 3 of 3

DATE

